November 16, 2007

DIRECTOR, FINANCIAL REPORTS DIVISION
FINANCIAL MANAGEMENT SERVICE, U.S. DEPARTMENT OF THE TREASURY

LYNDA DOWNING
U.S. GOVERNMENT ACCOUNTABILITY OFFICE

DANNY WERFEL
OFFICE OF MANAGEMENT AND BUDGET

SUBJECT:     Audit Opinion on the Postal Service’s Special-Purpose
             Financial Statements

Attached is a copy of the report on our audit of the Postal Service’s special-purpose
closing package. The objective of the audit was to express an opinion on the
reclassified balance sheet as of September 30, 2007, and September 30, 2006, and the
related reclassified statements of net cost and changes in net position for the years then
ended (referred to as special-purpose financial statements).

The special-purpose financial statements and notes were prepared by the Postal
Service for the purpose of providing financial information to the U.S. Department of the
Treasury and U.S. Government Accountability Office to use in preparing and auditing
the Financial Report of the U.S. Government, and are not intended to be a complete
presentation of the Postal Service’s financial statements. In our opinion, the
special-purpose financial statements referred to above present fairly, in all material
respects, the financial position of the Postal Service as of September 30, 2007, and
September 30, 2006, and its net costs and changes in net position for the years then
ended in conformity with accounting principles generally accepted in the United States
of America and the presentation pursuant to the requirements prescribed in Treasury
Financial Manual, Chapter 4700.
If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Financial Accountability, or Lorie Nelson, Director, Financial Reporting, at
(703) 248-2100.




Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachments

cc: H. Glen Walker
    Lynn Malcolm
    Stephen J. Nickerson
    Katherine S. Banks
November 16, 2007

H. GLEN WALKER
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:     Audit Report – Opinion on the Postal Service’s Special-Purpose
             Financial Statements (Report Number FT-AR-08-002)

We have audited the accompanying reclassified balance sheets as of
September 30, 2007, and September 30, 2006, and the related reclassified statements
of net cost and changes in net position for the years then ended (hereinafter referred to
as the special-purpose financial statements) contained in the special-purpose closing
package of the Postal Service (Project Number 07BM008FT000). These special-
purpose financial statements are the responsibility of Postal Service management. Our
responsibility is to express an opinion on these special-purpose financial statements
based on our audit. (See the appendix for the special-purpose financial statements,
notes, and other data.)

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures
in the special-purpose financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as
evaluating the overall special-purpose financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

The accompanying special-purpose financial statements and accompanying notes
contained in the special-purpose closing package have been prepared for the purpose
of complying with the requirements of the Treasury Financial Manual (TFM) Volume I,
Part 2, Chapter 4700, as described in Note X, solely for the purpose of providing
financial information to the U.S. Department of the Treasury and U.S. Government
Accountability Office to use in preparing and auditing the Financial Report of the U.S.
Government, and are not intended to be a complete presentation of the Postal Service’s
financial statements.
Opinion on the Postal Service’s Special-Purpose                               FT-AR-08-002
 Financial Statements



In our opinion, the special-purpose financial statements and accompanying notes
referred to above present fairly, in all material respects, the financial position of the
Postal Service as of September 30, 2007, and September 30, 2006, and its net costs
and changes in net position for the years then ended, in conformity with accounting
principles generally accepted in the United States of America and the presentation
pursuant to the requirements of the TFM Chapter 4700.

The information included in the Other Data is presented for the purpose of additional
analysis and is not a required part of the special-purpose financial statements, but is
supplementary information required by the TFM Chapter 4700. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding
methodology and presentation of this information. We also reviewed such information
for consistency with the related information presented in the Postal Service’s financial
statements. However, we did not audit this information and, accordingly, we express no
opinion on it.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as
amended, another auditor issued reports dated November 14, 2007, and November 13,
2006, on its consideration of the Postal Service’s internal controls over financial
reporting and its compliance with certain provisions of laws and regulations. Those
reports are an integral part of an audit of general-purpose financial statement reporting
performed in accordance with Government Auditing Standards and OMB Bulletin No.
07-04, as amended, and should be read in conjunction with this report in considering
the results of our audit.

In planning and performing our audit of the special-purpose financial statements, we
also considered the Postal Service’s internal controls over the special-purpose financial
statements and compliance with TFM Chapter 4700. Management is responsible for
establishing and maintaining internal controls over financial reporting, including Other
Data, and for complying with laws and regulations, including compliance with TFM
Chapter 4700 requirements.

Our consideration of internal controls over the financial reporting process for the
special-purpose financial statements would not necessarily disclose all matters in the
internal controls over the financial reporting process that might be significant
deficiencies. Under standards issued by the American Institute of Certified Public
Accountants, significant deficiencies are deficiencies in internal controls, or a
combination of deficiencies, that adversely affect the Postal Service’s ability to initiate,
authorize, record, process, or report financial data reliably and in accordance with
accounting principles generally accepted in the United States of America such that there
is more than a remote likelihood that a misstatement of the special-purpose financial
statements being audited that is more than inconsequential will not be prevented or
detected. Material weaknesses are significant deficiencies, or a combination of
significant deficiencies, that result in a more than remote likelihood that material




                                                  2
Opinion on the Postal Service’s Special-Purpose                              FT-AR-08-002
 Financial Statements


misstatements in relation to the special-purpose financial statements being audited will
not be prevented or detected.

The Postal Service’s independent public accounting firm’s Report on Internal Control
Over Financial Reporting and on Compliance and Other Matters Based on an Audit of
Financial Statements Performed in Accordance with Government Auditing Standards,
dated November 14, 2007, identified three deficiencies in internal control over financial
reporting they considered to be significant: (1) accounting for real estate transactions,
(2) accounting for international mail transactions, and (3) procedures for mail
acceptance.

We found no material weaknesses in internal controls over the financial reporting
process for the special-purpose financial statements, and our tests of compliance with
TFM Chapter 4700 requirements disclosed no instances of noncompliance that are
required to be reported under Government Auditing Standards and OMB Bulletin No.
07-04, as amended. However, providing opinions on internal controls over the financial
reporting process for the special-purpose financial statements or on compliance with
TFM Chapter 4700 requirements were not objectives of our audit of the special-purpose
financial statements and, accordingly, we do not express such opinions.

This report is intended solely for the information and use of the Postal Service, the U.S.
Department of the Treasury, the Office of Management and Budget and the U.S.
Government Accountability Office in connection with the preparation and audit of the
Financial Report of the U.S. Government and is not intended to be and should not be
used by anyone other than these specified parties.




Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment

cc: Lynn Malcolm
    Stephen J. Nickerson
    Katherine S. Banks




                                                  3
